<html>
<title> - THE BEIJING OLYMPICS AND HUMAN RIGHTS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                 THE BEIJING OLYMPICS AND HUMAN RIGHTS
=======================================================================




                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2002

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov










                           U.S. GOVERNMENT PRINTING OFFICE
83-979                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             SHERROD BROWN, Ohio
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director
                   John Foarde, Deputy Staff Director

                                  (ii)















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Wamsley, Kevin, sports historian and expert on the Olympic Games, 
  director, the International Centre for Olympic Studies, 
  University of Western Ontario, London, ON, Canada..............     2
Oberdorfer, Don, journalist-in-residence, School of Advanced 
  International Studies, Johns Hopkins University, Washington, DC     5
Beer, Lauryn, director, Human Rights and Business Roundtable, the 
  Fund for Peace, Washington, DC.................................     7

                                APPENDIX
                          Prepared Statements

Wamsley, Kevin...................................................    30
Beer, Lauryn.....................................................    32










                 THE BEIJING OLYMPICS AND HUMAN RIGHTS

                              ----------                              


                       MONDAY, NOVEMBER 18, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m. in room SD-215, Dirksen Senate Office Building, Ira Wolf 
(staff director of the Commission) presiding.
    Also present: John Foarde, deputy staff director; Chris 
Billing, director of communications; Tiffany McCullen, U.S. 
Department of Commerce; Matt Tuchow, office of Representative 
Sander Levin; J.J. Piskadlo, office of Representative Jim 
Davis; and Karin Finkler, office of Representative Joseph 
Pitts.
    Mr. Wolf. All right. Let us get started.
    I would like to welcome everyone today to this staff 
roundtable of the Congressional-Executive Commission on China. 
Today our topic is ``Human Rights and the Beijing Olympics 
2008.''
    There has been a lot of discussion about the Beijing 
Olympics and its relationship with the human rights situation 
in China. We have three people today who we hope will provide 
some enlightenment to us.
    Kevin Wamsley, who is an expert on Olympic sociology and 
sports history, is director of the International Centre for 
Olympic Studies at the University of Western Ontario. We really 
appreciate you coming all the way to Washington, Kevin.
    Don Oberdorfer is Journalist-in-Residence at Johns Hopkins 
School of Advanced International Studies and a long-time 
Washington Post foreign correspondent, with long expertise in 
Asia.
    Finally, Lauryn Beer is director of the Human Rights and 
Business Roundtable at the Fund for Peace.
    I just want to mention that we did invite representatives 
from the International Olympic Committee [IOC] and from the 
U.S. Olympic Committee to join us today in this roundtable 
discussion, but they respectfully declined our invitation. I 
just want to note that for the record.
    We hope that perhaps at a future roundtable or hearing on 
this issue, as we get closer to 2008, perhaps they will be 
interested in giving us their views.
    I am Ira Wolf, staff director of the Commission. John 
Foarde is the deputy staff director. Chris Billing is the 
communications director of the Commission and has the 
substantive responsibility for Olympics issues on the 
Commission staff. Karin Finkler works for Congressman Joe 
Pitts, one of our commissioners, and Tiffany McCullen works for 
Grant Aldonas, the Under Secretary of Commerce, who is also one 
of the commissioners.
    So, Kevin, why do we not start with you? Please go ahead.

STATEMENT OF KEVIN WAMSLEY, SPORTS HISTORIAN AND EXPERT ON THE 
   OLYMPIC GAMES, AND DIRECTOR, THE INTERNATIONAL CENTRE FOR 
  OLYMPIC STUDIES, UNIVERSITY OF WESTERN ONTARIO, LONDON, ON, 
                             CANADA

    Mr. Wamsley. Thank you.
    First, permit me to thank you for inviting me to be here 
today. Our point of departure for these proceedings is to 
discuss the potential influences of the process of hosting the 
Olympic Games in China in 2008. Of course, we have to 
acknowledge that our ideas and ruminations are purely 
speculative today.
    With that being said, I think we can offer some comments on 
these issues from my perspective, based on our knowledge of 
China's history, its current political policies and practices 
and its 
cultural connections to the Olympic Games in the past and 
present, and, perhaps most importantly, some of the extant 
perceptions about the role of the modern Olympics in 
facilitating social and 
political change.
    China's sporting relations with other countries extend back 
almost a century, including post-World War I correspondence 
with the International Olympic Committee, and participation in 
the games of 1932, 1936, and 1948.
    China's return to competition in 1984, indeed the fervor of 
its bidding strategies for 2000 and 2008, signal that the 
Olympics have become a significant component of Chinese 
domestic and 
foreign policy.
    If the unofficial financial estimates and cost projections 
in the proclamations of social preparation may be positioned as 
indicators, we must conclude that not only are the games of 
2008 a serious commitment for China, they are being positioned 
as one of the most important events in Chinese history.
    With this in mind, we may draw some speculative conclusions 
on what sort of strategies may be adopted and employed by the 
Chinese Government, like all other Olympic governments, to 
render a public face to the international community, and 
further, how the Chinese people will participate in projecting 
favorable images of a modern China to a global audience.
    In the post-1978 era of the commercialized Olympic Games, 
host cities have employed deliberate strategies to represent 
themselves as world class, stable, intriguing, vibrant, and 
successful. Beijing will be no different.
    Indeed, to date, Beijing's public proclamations respecting 
citizen behavior in hosting protocols entitled ``Urban Civility 
and Building Citizen Morality,'' I would characterize as overt 
and threatening.
    Arguably, it is fair to say that the Chinese Government 
will ensure that far beyond the level of the Olympics 
volunteer, average Beijing citizens will adhere to a code of 
conduct for the games, including the pre- and post-Olympic 
periods. This is not unusual for host cities; rather, it 
remains a matter of degree.
    When one considers that the Olympic Games have long been a 
site for political expression alongside a more recently fervent 
civic and national boosterism by host cities, juxtaposed with 
intense media scrutiny, it follows that citizen behavior and 
political protests are matters of significant concern for 
organizing committees and national governments.
    Assurances from host countries are implied in official 
doctrine. Indeed, if you read the Olympic charter, you will 
find that ``there will be no kind of demonstration, or 
political, religious, or racial propaganda permitted in the 
Olympic areas.''
    Further, many bidding cities and host cities from around 
the world have taken steps to remove what are perceived to be 
unsightly individuals and groups in core areas and to ensure 
that political groups are not given opportunities to distribute 
information or capitalize upon media opportunities.
    It is fair to assume that Beijing will implement some 
strategies of urban cleansing, perhaps in the form of 
relocating unregistered citizens in Beijing, shutting down 
their businesses, or even 
detaining them.
    One of the most significant factors to be considered in 
Beijing's hosting of the Olympics is the potential influence of 
the idea of 
nationalism in China, stemming mainly from a common sense of 
historic and current marginalization among Chinese people in 
various forms of international relations, and consequently, the 
galvanization of public sentiment that hosting the Olympic 
Games has already inspired and will continue to escalate.
    This, of course, has direct bearing on the behavior of 
citizens, their support of overall government initiatives, and 
the reluctance of even some dissidents to jeopardize China's 
moment of 
international recognition.
    This nationalist sentiment should not be underestimated, 
particularly when one is attempting to gauge how Chinese 
citizens will react to government crackdowns, urban policy 
initiatives dealing with dissidents, and how they may or may 
not reveal information about their lives to outsiders, and how 
they will actively participate in the Olympic Games and related 
festivities.
    Just as significantly, it is likely that the Chinese 
Government will take advantage of such cultural solidarities as 
it launches and conducts its programs of cultural 
representation for Beijing.
    In addition to the period of time leading up to the games, 
the potential influences of an influx of some 20,000-plus 
journalists and sport tourists during the games must be 
debated.
    However, any suggestions that such social contacts between 
Chinese citizens in Beijing and other parts of China and the 
so-called Westerners will have an immediate influence on social 
activism or a long-term effect on government policies are 
erroneously simplistic.
    Certainly, the issue of human rights in China has become a 
focal point for the Western media, and journalists will be 
interested in both controversy and crisis. Any immediate 
matters of human rights will no doubt be dealt with 
expeditiously.
    But with respect to long-term effects of the games, there 
are many factors to consider in the hosting process which tend 
to polarize media interpretations of local and national events, 
and limit the influence of what might be perceived as 
contradictory or destabilizing ideologies.
    First and foremost, the Olympics are a brief and intense 
media spectacle. Second, the Chinese Government may refuse 
entry to any media personnel who have proven to be unfriendly 
in the past. Third, the IOC maintains the rights to internal 
access for members of the media.
    Fourth, a glimpse at Olympic history demonstrates that 
serious local or national problems may be focal points of 
international interest through media scrutiny both before and 
during an Olympics, or during the bidding process, but such 
stories tend to fade quickly when the Olympic caravan has 
departed.
    Take, for example, aboriginal issues in Sydney, Calgary, 
Salt Lake City, homelessness in Toronto and Atlanta. The 
Olympic process that includes bidding and hosting, and of 
course the attendant ideological forays into peace, brotherhood 
and equity, have had little impact beyond limited media 
exposure to such issues, and inspiring perhaps a greater 
solidarity toward local resistance to mega-events.
    Finally, the sheer intensity of the Olympic Games as a 
media construction tends to shift focus away from national 
issues that may have received significant attention before the 
games, effectively marginalizing the plights of individuals or 
groups who may have once been central to journalistic 
interests.
    Other international interest groups are integral components 
of the legitimizing process perpetuated through the Olympic 
Games. Currently, and increasingly as the games draw near, 
corporations, consulting firms, specialists, and academics will 
trade on the economic opportunities presented by the hosting of 
the next games.
    Groups in Sydney, for example, are now lobbying to assist 
China in developing its infrastructure and Olympic programs, 
from buildings and facilities to cultural programs, academic 
exchange, and Olympic education.
    Corporations that already have a significant multi-million 
dollar interest in the success of the games and those that are 
currently seeking contracts are not likely to endorse any 
systematic critiques that focus negative attention toward the 
host nation.
    Indeed, they have diverse financial interest in Chinese 
markets, but also the larger corporations that trade on Olympic 
symbolism and ideology have a stake in promoting an image of 
China as an exotic, historically stable, vital nation through 
which sensible and interesting cultural links can enhance their 
products and the flow of global capital.
    Intellectuals who depend upon access to even limited 
information, travel, and financial aid for publications and 
educational liaisons are not likely to seriously raise issues 
of human rights for fear of jeopardizing their positions of 
privilege.
    Historically, the Olympic process has tended to provide 
legitimacy to host governments and their policies, endorsements 
to their success in hosting the games, and furthering the so-
called spirit of the Olympic Games as opposed to drawing 
attention to shortfalls and political controversies.
    Well-documented examples include the economic crises of 
Antwerp in 1920, London in 1948, the Great Depression in 1932, 
Los Angeles, Hitler's fascism in 1936, Mexico's slaughter of 
innocent citizens in 1968.
    Serious tragedies and atrocities have become subsidiary to 
the more glamorous immediacies of the Olympic spectacle. On the 
other hand, members of the international sporting community, 
Olympic officials specifically, were able to exert remarkable 
influence through several decades over the issue of apartheid 
in South Africa. These pressures, however, had more broad-based 
political support and diplomatic attention.
    In summary, the Olympic Games have done far more to sustain 
and reproduce extant domestic policies, to reproduce 
mythologies about race and equality, economic and social 
opportunity, and world peace than to subvert the inequalities 
of the world.
    In the short-term, it is likely that the Olympic process, 
ensconced with its traditional diplomacies, hyperbole, and 
rhetoric, indeed, the political exigencies of a host nation, 
will negatively affect human rights in China. Further, the 
solidarities created through extensive preparations to host the 
world should not be underestimated.
    International initiatives that question China's social and 
political prerogatives in the years leading up the 2008 
Olympics might be viewed, even by average citizens, as efforts 
to undermine what is being celebrated widely as the arrival of 
a modern China. International advocates for political change in 
China should proceed with caution.
    Thank you.
    [The prepared statement of Mr. Wamsley appears in the 
appendix.]
    Mr. Wolf. Thanks very much.
    We have been joined up here by Matt Tuchow, who works for 
Congressman Sander Levin, one of our commissioners, and J.J. 
Piskadlo, who works for Congressman Jim Davis, also a 
commissioner.
    Don Oberdorfer, please.

STATEMENT OF DON OBERDORFER, JOURNALIST-IN-RESIDENCE, SCHOOL OF 
   ADVANCED INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY, 
                         WASHINGTON, DC

    Mr. Oberdorfer. Well, thanks for inviting me to come. I am 
not an expert on Olympics. I am a former journalist, as Ira 
said, for the Washington Post for 25 years, and an historian of 
sorts about Korea, including this book, ``The Two Koreas,'' 
which covered, among other things, the impact of the 1988 
Olympics in Seoul on Korea.
    There are certain parallels with China. It is another Asian 
country. Korea, at the time, was a fairly authoritarian 
government. After the assassination of Park Chung Hee in 1979, 
a group of generals took over, headed by Chun Doo Hwan, who was 
in office at the time leading up to the Olympics.
    The 1988 Olympics in Seoul had two very powerful, 
beneficial, and historical effects in South Korea. One of them 
is probably applicable to China; the other one, I do not think, 
is.
    The first one was that it broke the isolation of South 
Korea by various Communist countries, imposed in sympathy with 
North Korea. Of 160 nations participating in the Seoul games, 
24 had no diplomatic relations whatever with South Korea prior 
to the Olympics, including the Soviet Union, China, and most of 
the Eastern European countries.
    The Olympics provided an opportunity for those people from 
those countries to come to Korea for Koreans to interact with 
them, and it led, really rather rapidly, to the development of 
diplomatic relations with quite a number of those countries. As 
I said, I do not think that is particularly applicable to 
China.
    The second effect, however, may be applicable to China. The 
fact of the coming of the Olympics, more than the Olympic Games 
themselves, had a powerful political effect within South Korea.
    The designation of Korea for the 1988 games was done 7 
years before. But, as the date neared, there were increasingly 
important domestic effects. There had been political turbulence 
in South Korea following the assassination of Park Chung Hee in 
1979, and it was an authoritarian government under General Chun 
that was in power as the Olympics neared.
    For several years, and especially in 1987, the year prior 
to the Olympics, which happened to be a presidential election 
year in South Korea, there were periodic protests about opening 
the election to serious competition, ending in mass protests 
early in 1987.
    Juan Antonio Samaranch, then the president of the IOC, made 
it known that the games might be moved elsewhere in case of 
massive disorders in South Korea. There was also the threat of 
non-participation by a number of countries, following on the 
precedent of the Moscow Olympics of 1980.
    As I said, particularly in the summer of 1987, there were 
very large protests demanding direct election of the president 
rather than being elected by an easily controlled electoral 
college body.
    This came to a head in June 1987. General Chun was 
considering declaring martial law, putting down the 
demonstrations with guns and bullets. The United States played 
an important role in persuading him not to do so, especially a 
letter written by President Reagan that was delivered by James 
Lilley, who was then the Ambassador of the United States to 
South Korea.
    But there is no doubt in my mind, or I think anybody's mind 
who was following those events, that a very major factor was 
concern about the possibility of losing the Olympic Games or 
having them severely downgraded by the non-participation of 
major countries.
    This would have been, in Korean terms, a blot on all of 
South Korea. The Olympics were seen as a national festival of 
towering importance to all Koreans.
    It was only one factor, but it was a major factor in the 
decision by President Chun not to declare martial law, to agree 
to the holding of the elections which most of the people in 
South Korea wanted, and opening up the political system. June 
1987 was the point at which South Korea became the democratic 
country that it is today.
    The elections were opened. There was a free and fair 
election and the President took office with complete approval 
of the people.
    North Korea, by the way, did not participate in the 
Olympics, tried to stop it, and particularly arranged to have 
an airliner blown up in an attempt to try to persuade people 
not to participate, which did not work.
    Now, in the Sydney Olympics in 2000, North and South Korea 
marched together into the stadium, one of the most dramatic 
moments in those games.
    What I just said, I think, is the record. I have covered 
some of it in the book that I wrote. Other articles I wrote at 
the time were my own observation.
    What follows now is speculation about China. My view, is 
the coming of the Olympics will help China to open up. The 
pressures not to do drastic things, the pressures to conform 
with international standards, I think, will be there.
    I do not know the extent to which they will be heeded, but 
I think those pressures, particularly in the several years 
closer to the Olympics, will be strong.
    I might add that I have been in China 15 times since 1974 
when I first made my first trip to China with Secretary 
Kissinger. I have seen tremendous changes in that country, 
enormous changes that I never would have guessed would have 
happened in 1974, or even in the early 1980s.
    China certainly does not meet all the standards that I 
would like to see, but considering where China has come from, 
it has made enormous improvements in almost every part of 
Chinese life.
    I personally think that the coming of the Olympics is going 
to assist further in having the Chinese Government, 
institutions, and even people meet international standards. 
Thank you.
    Mr. Wolf. Thanks a lot, Don.
    Lauryn.

 STATEMENT OF LAURYN BEER, DIRECTOR, HUMAN RIGHTS AND BUSINESS 
                ROUNDTABLE, THE FUND FOR PEACE, 
                         WASHINGTON, DC

    Ms. Beer. Thank you very much for allowing me the 
opportunity to speak to you today on behalf of the Fund for 
Peace. As you stated in your introduction, I am the director of 
the Human Rights and Business Roundtable. I would just like to 
say a few words about what we do and why it is applicable to 
the topic at hand here.
    The mission of the Fund for Peace is to prevent war and to 
alleviate the conditions that cause war. Our programmatic focus 
is to strengthen the capacity of the United States and the 
international community to respond to global internal conflicts 
in five key areas: early warning, military intervention 
criteria, arms 
control, policy integration, and constituency building.
    It is this last area, constituency and consensus building, 
that the Human Rights and Business Roundtable has excelled in. 
It is also the focus of what I wish to speak to you about 
today.
    The Beijing Olympics affords a timely opportunity for 
creative partnering between the business and human rights 
communities, both here in the United States and in China, to 
both improve human rights and the climate for international 
businesses investing in China.
    The Roundtable was launched in 1997 with the goal of 
bringing together two communities that have been traditional 
adversaries: multinational business and human rights advocates.
    Yet, they represent two of the most important Cold War 
constituencies in the United States. In its 5 years of 
operation, the Roundtable has developed procedures, principles, 
formats, and policies to ensure the smooth working of the 
Roundtable, including a set of operational ground rules.
    They stipulate that members of the Roundtable participate 
in their individual capacities and not as representatives of 
the organizations with which they are affiliated, so they do 
not need to obtain clearance from their organizations to 
express views and reach 
consensus.
    All discussions are off the record and by invitation only, 
and records of the meetings are on a non-attribution basis, 
except when speakers indicate otherwise.
    The Roundtable offers a way to discuss hard issues in a 
spirit of cooperation rather than confrontation. It has thus 
far convened over 50 meetings that have engaged more than 150 
individuals from the human rights and business communities.
    Over 20 multinational corporations and 30 human rights 
groups have collaborated under the Roundtable's leadership to 
work in partnership on the problems and opportunities of 
economic globalization.
    Now, it is no secret that the success of China's bid for 
the 2008 Olympics has garnered much criticism from human rights 
advocates. The scrutiny of the human rights community will make 
it likely that businesses supporting the Olympics will be 
expected to do more than simply pay for advertising space in 
Beijing.
    Already, Human Rights Watch, Amnesty International, and 
others have stated publicly that they expect sponsoring 
businesses to take a proactive role in advancing democracy in 
China leading up to, and during, the games.
    U.S. corporations sponsoring the Olympics are tendering 
bids for preparatory infrastructure development could face 
considerable challenges. Sponsors could find themselves tainted 
by association should the China authorities commit human rights 
abuses during the games.
    For example, the Olympic Committee's mandate states that 
there must be unfettered access to the press during the games. 
But what will the Chinese authorities do in the face of 
potential protests around the games? What might be the 
repercussions for business if human rights abuses are being 
seen committed under corporate banners?
    Further, corporations doing business in China, not just 
those sponsoring the games, have an interest in promoting the 
rule of law, since predictability is crucial to sustainable 
business.
    Businesses ignore the human rights aspects of the rule of 
law at their own peril, as has been borne out by the 
experiences of some companies in countries such as Nigeria, 
Colombia, Indonesia, India, and, yes, China.
    The new leadership in China will no doubt wish to 
capitalize on the publicity and income the games generate. 
There are 6 years between now and the summer games in 2008, 
during which business, government, and NGOs can engage in 
meaningful and action-oriented dialog on human rights and 
business issues surrounding the games.
    Our recommendations are these: The Congressional-Executive 
Commission on China is charged with monitoring human rights and 
the development of the rule of law in China, and with 
submission of an annual report to the President and Congress.
    In its 2002 annual report, the Commission made one of its 
priority recommendations that the administration ``facilitate 
meetings of United States, Chinese, and third country companies 
doing business in a specific locality and industry in China to 
identify systemic worker rights abuses, develop recommendations 
for appropriate Chinese Government entities, and discuss these 
recommendations with Chinese officials, with the goal of 
developing a long-term, collaborative relationship between 
government and business to assist in improving China's 
implementation of internationally recognized labor standards.''
    The Fund for Peace believes that human rights organizations 
and multinational business form two of the key constituencies 
affecting U.S. foreign policy today. The Fund, therefore, 
proposes that the Commission's recommendation on business/
government collaboration be broadened to include U.S. and 
international NGOs.
    We further recommendation that the focus of collaboration 
between business, NGOs, and government be widened to cover not 
only labor issues in China, but a broad range of human rights 
and rule of law issues that relate to the success of the 
Beijing Olympics.
    These would include freedom of association and assembly, 
freedom of expression, security concerns, due process, and 
transparency.
    The Human Rights and Business Roundtable offers a useful 
and practical model for engagement between businesses and human 
rights organizations and their partners in China.
    We would propose that the goals of a dialog on the Beijing 
Olympics be as follows: (1) to develop a preventative strategy 
that would assist businesses in avoiding being implicated in 
potential human rights abuses surrounding the games; (2) to 
engage a broad cross-section of civil society and businesses 
and frank discussions of Chinese and Western perspectives on 
human rights and the rule of law; (3) to involve the private 
sector in ongoing conversation and education on security and 
human rights issues in a cooperative spirit of corporate social 
responsibility; (4) to educate both constituencies and increase 
their knowledge of human rights and security issues; (5) to 
support civil society capacity by promoting groups to act in a 
collective setting and encourage collaboration where 
possibly; (6) to find areas of common ground, explore channels 
of potential cooperation between communities; and (7) to create 

practical actions to attain mutual goals, and to use the 
Beijing Olympics as a means to establish a best practices model 
for future international events.
    Finally, we would invite the Commission to report on such a 

dialog's progress in its future annual reports.
    [The prepared statement of Ms. Beer appears in the 
appendix.]
    Mr. Wolf. Thanks very much.
    What we will do now is we will go around one by and one and 
just ask you some questions, and hopefully engage in some 
discussion. To discipline ourselves, we will give ourselves 
about 5 minutes each to engage you.
    It is a very interesting set of presentations. I think, 
Don, your discussion of how the Olympics acted as one input 
into systemic change in Korea was fascinating.
    It is an interesting contrast, Kevin, to your approach, 
which I take as saying that Olympics come and go, a lot of news 
coverage during the Olympics itself, and then it is life as 
normal. Lauryn, you are saying that may be true. But how do we 
make it so that it is not life as normal?
    I wonder, Kevin. You have looked at the Korean Olympic 
Games as well. I wonder how--and I realize you are not a Korea 
expert--you react to Don's description of the Olympics has 
having this kind of systemic impact on a system, as in Korea?
    Mr. Wamsley. Well, I do not necessarily disagree with him, 
but it is very difficult to discern what political and social 
change has been wrought by the Olympics directly and what 
source of other, broader changes were taking place at the same 
time, what parts of the Olympic Games process actually had an 
impact on facilitating these social, political, even economic, 
changes.
    I know in economic studies, for example, if we can draw a 
parallel, it is very difficult to discern what directly impacts 
on a specific result, and having to discern which variables we 
can isolate when it comes to looking at direct impacts caused 
by the Olympic Games.
    It is really a network of factors and forces which happen 
before, during, and after the Olympic Games. So from my 
standpoint, some of the points that were raised about 
diplomatic relations, you could pinpoint those very easily.
    But with respect to human rights, to current local, even 
national issues, they are so wrapped up with other things, 
domestic issues and international issues, that it is hard to 
separate them.
    Mr. Oberdorfer. I agree with that. As I said, it was one 
factor. There were other factors, including the rise of the 
Korean middle class demanding, basically, more of a say in 
their government, pressures from the United States, other 
things that took place. But it was, in my view, anyway, as an 
historian of those events, one of the more important factors.
    Mr. Wolf. This is more of a comment than a question. Feel 
free to respond if you have any thoughts. The human rights 
groups, today, looking at the Olympics are looking for ways 
that action could be taken so there will be an impact from the 
Olympics. It is quite different than Don's description of 
Korea, where it was reality and it is simply part of the flow 
of events.
    Trying to look at how to have an impact, how to leverage 
the Olympics for human rights goals, is a much different 
question, and much more difficult.
    Mr. Oberdorfer. In the case of Korea, it was the fact that 
there was a perception that it might not happen if Korea 
cracked down hard on its people, or if there was massive 
martial law, shooting of people, any of these things. I think 
it helped persuade the government not to do that.
    Ms. Beer. Yes. I do not think that that is the fear now. I 
do not think anybody seriously thinks that the Beijing Olympic 
Games are not going to happen. I think that it is very 
different now. We have the Internet, which was not really 
around and kicking when Seoul happened.
    There are also going to be a profound number of satellite 
broadcast journalists present at the games, and increasingly 
human rights activists have taken advantage of these two 
factors in other areas.
    So I think that for many of them, simply the opportunity to 
have all this press attention will make it likely that a lot of 
them will turn out at the Olympics themselves.
    I think, obviously, you have already seen comments--I made 
reference to two of them--from leading human rights 
organizations that have already criticized this and stated 
unequivocally that they expect business to take a proactive 
role.
    So, I think from our perspective, what we would like to see 
is some creative, proactive thinking about how to utilize this 
to advance human rights, but as we found in our Roundtable, the 
advancing of the rule of law and the advancing of human rights 
are part of the same process, they are not mutually exclusive 
by any stretch of the mind.
    In fact, you cannot really have transparency in business 
with a corrupt government, and a whole host of other human 
rights problems will make it impossible for you to function 
well as a business.
    Mr. Wolf. Are some of the members of your business 
Roundtable included among the major sponsors of the Olympics?
    Ms. Beer. No. We have a couple of companies that have some 
serious investments in China. Mostly, we now have a focus that 
has changed from a sort of broad array of companies to those in 
the extractive industries.
    But what I would suggest would be that any company that has 
a serious interest, not just in sponsoring the games but in 
long-term investment in China, ought to be thinking 
strategically like this, because it is not just that the 
Olympics will provide scrutiny during the events, there is 
already scrutiny now and that will 
increase, in my view.
    In the run-up as we get closer and closer to 2008, there 
will be more and more expectations, I think, particularly if 
something adverse happens where the Chinese authorities are 
seen bulldozing thousands of people out of their homes, for 
instance.
    Mr. Wolf. Thanks.
    John.
    Mr. Foarde. This question is principally for Kevin, but 
also for Don and Lauryn, if you want to step up to it.
    Kevin, what is your understanding of the specific 
commitments that the Chinese Government made in the bid process 
with respect to such human rights as freedom of association and 
freedom of the press? The actual documents do not seem to be 
available publicly. At least, I have not been able to find 
them.
    I wonder if you have any sense of what specific things they 
made commitments on to be able to win the bid.
    Mr. Wamsley. There are some standard commitments that are 
available publicly, and that includes some of the things that 
have been mentioned today, freedom for the press to move around 
reasonably in the city, and to report, and freedom of travelers 
to move within the realm of Chinese law.
    The people who are allowed to get in the country should get 
in the country, and that includes journalists and members of 
the press. But, like you, the information is no more made 
available to me, so I do not have much more insight than you do 
on that issue.
    Mr. Foarde. What about freedom of religious practice for 
athletes and visitors? Do you know anything about commitments 
with respect to that?
    Mr. Wamsley. The Olympic Village is supposed to be a free 
zone for people to practice their normal cultural practices, 
including religion. So, it is supposed to be set up to 
accommodate these things with respect to prayers, and with 
respect to food, et cetera. This is supposed to be a part of 
the hosting process.
    Mr. Foarde. You said in your presentation that the 
expectations there would be somewhere in the vicinity of 20,000 
athletes and visitors. Did I get that number wrong? I mean, is 
it more than that?
    Mr. Wamsley. It will be more visitors. I mentioned 20,000 
journalists.
    Mr. Foarde. Oh, 20,000 journalists.
    Mr. Wamsley. Yes. Media personnel, television, radio.
    Mr. Foarde. And, roughly, what is the prediction on 
visitors, any sense?
    Mr. Wamsley. Should be roughly around the same as Sydney. 
It would be, perhaps, an influx of 10,000 to 15,000. The only 
problem with comparing to Sydney, was that was tourist time for 
Sydney as well, so it is very difficult to discern who were 
Olympic tourists and who were the regular tourists.
    Mr. Foarde. Don Oberdorfer, do you have a recollection of 
how many foreign visitors, roughly, there were for the games in 
1988?
    Mr. Oberdorfer. I have no idea. I cannot keep those kind of 
numbers in my head. But there were a lot, I can tell you that.
    Mr. Foarde. Thank you.
    Mr. Wolf. Chris.
    Mr. Billing. This is for you, Don. As a former journalist, 
I was wondering, first of all, if you could give us a sense of 
what kind of restrictions you were up against in Seoul as far 
as what they allowed you as free access for reporting, and what 
you might expect in China for reporters.
    Mr. Oberdorfer. I did not actually cover the Olympics 
themselves. I was not a sports writer, so I did not go over 
there for that purpose. I do know that they had extensive 
facilities for journalists. I was there with Secretary Shultz 
some time before the Olympics when he inspected the facilities 
and all that kind of stuff.
    But I do not recall any big problem for journalists in 
covering the games. The South Korean Government, I think, and 
the Olympics Committee, made very extensive preparations for 
coverage.
    The only problem, and I guess it will be the same with 
China, is that the time zone was such that the major events 
took place in the middle of the night over here, which was 
something that did not bother the journalists, but it bothered 
the advertisers. But I do not think there was a big 
journalistic problem, that I remember, anyway.
    Mr. Billing. Do you know, Kevin, as far as the unfettered 
access for journalists, is that restricted only to Beijing or 
does that mean throughout all of China, that they can travel 
freely?
    Mr. Wamsley. Presumably, once in the country, they can 
travel freely. The access I spoke specifically about was 
governed by the IOC to Olympic sites.
    One thing I might note, is that since the scandal the IOC 
has been considerably embarrassed by restricting access to any 
journalists. I think that that has improved so that certain 
journalists who have written unfavorable things in the past 
might be granted 
access to Olympic sites.
    Mr. Billing. Would you expect China to follow through on 
that commitment to allow reporters to run around freely?
    Mr. Wamsley. I do not think that reporters will be allowed 
to run around freely, necessarily. I would not be surprised if 
there is not a certain resistance to speak to reporters. I 
would not be surprised if people are instructed to only say 
certain things.
    The other thing I would argue is that there may be a 
certain 
resistance on behalf of the people who are in favor of putting 
on a good show in Beijing, who would be reluctant to speak 
about 
certain things during the games.
    Mr. Wolf. Thanks.
    Tiffany.
    Ms. McCullen. My question is for Lauryn. Lauryn, do you 
think that International Olympic Committee sponsors can 
effectively 
influence China to improve upon its human rights?
    Ms. Beer. Yes. I do not think you can look at this in an 
isolated way. I do not think that companies can, themselves, 
effect all the change that needs to happen. Obviously that has 
to be done by the government.
    But I think that, yes, I do believe that corporations, 
particularly if they have a big investment in China, have a lot 
of influence, as they have had in many other countries. I do 
not know what the extent of that influence is. For a lot of the 
companies that are sponsoring, they are not actually invested 
in China outside the games.
    So it is not like, because your name appears at the Olympic 
Games, that that means that all of a sudden your investments in 
China will be put at risk if something happens. What it does 
for those sponsors, obviously, if something happens, is the 
potential of association with an event that has gone wrong. So, 
it is a kind of twofold set of corporate activities there that 
I am envisioning.
    The other is also for businesses, though, who do have the 
long-term investments who are not necessarily sponsors, but who 
certainly have an interest in seeing that the Beijing games do 
not backfire.
    So if the implication of your question is, well, how do 
they do it----
    Ms. McCullen. Yes. Yes.
    Ms. Beer. Well, this is why I proposed engagement, because 
I do not think there are easy answers to that question. I think 
that there is a potential for things to change a lot between 
now and 2008, but that is why we think it is a good idea to 
start the kind of dialog that brings to the fore questions of, 
well, what are you going to do about security if there are 
problems? What are you going to do about potential gag orders? 
What are you going to do if there is protester crackdown in a 
violent way outside of the Olympics site when there are 20,000 
reporters with microphones in your face? How are you going to 
handle it?
    I think that the experience of a lot of corporations, in 
the midst of violent protests, trying to say, ``Well, nothing 
to do with us, mate,'' is not really a successful strategy any 
more.
    Ms. McCullen. When you say ``engagement,'' do you mean with 
NGOs or engagement with the Chinese Government? Who should the 
engagement be with?
    Ms. Beer. I think it could take a number of different 
forms. Initially, I would say for businesses and NGOs to come 
up with a set of issues that they would like to take, both to 
our government, and then have our government take to the 
Chinese. That, to me, is the strategy that personally makes 
most sense.
    I think that bringing in governments, whether it is ours or 
the Chinese, too early on, can make both corporations and human 
rights people nervous. The idea is to foster a frank dialog, 
which is why we do things the way we do, that is, always off 
the record and it is on a non-attribution basis, because we 
want the frank 
exchange of ideas.
    But I think at that point, once you have got some common 
ground established, that is when you bring in the United States 
Government and you invite them into the dialog as well, with a 
view to influencing the Chinese Government.
    Ms. McCullen. So you invite other NGOs to your roundtable 
discussions?
    Ms. Beer. Yes.
    Ms. McCullen. Which ones, if you do not mind me asking? Or 
can you say?
    Ms. Beer. I was wondering whether anybody would ask me 
that. I do have a list of everybody that has participated. We 
have had, over the 5 years, people coming and going for all 
sorts of reasons.
    But just to give you a sampling, on the NGO side, we have 
had Ashoka, the Asian Society, Brookings, Business for Social 
Responsibility, The Carnegie Endowment, The Carter Center, The 
Coalition for International Justice, Amnesty, The Lawyers 
Committee for Human Rights, The International Human Rights Law 
Group, Human Rights Watch, Freedom House, First Peoples 
Worldwide, The Fair Labor Association, Minnesota Advocates for 
Human Rights, the RFK Center for Human Rights, The U.S.-China 
Business Council, Transparency International, and World 
Monitors.
    Ms. McCullen. All right. Thank you.
    Ms. Beer. Sure.
    Mr. Wolf. Karin.
    Ms. Finkler. Thank you. In earlier testimony, witnesses 
referred to how the International Olympic Committee was willing 
to possibly cancel and withdraw the games from Korea.
    Do you believe there is a willingness to do that now if 
something happens in Beijing or somewhere in China? If not, why 
not? If so, what type of horrible situation would it take for 
the committee to remove the games from China?
    Mr. Oberdorfer. Somebody is probably more of an authority 
than I am on this. But just the possibility that that could 
happen was enough to fix the minds of the Korean authorities. 
Samaranch alluded to that possibility.
    You had at that time, of course, the example of the 1980 
games and the 1984 games where there was not full 
participation, and nobody wanted that to spoil, in effect, the 
Olympics in 1988.
    So I do not know what the International Committee would do 
under the current circumstances. But I think, just the 
possibility that something could be drastically done would fix 
the mind of the people in China. I do not know how far the 
Olympics Committee would go.
    Mr. Wamsley. I think it would have to be pretty major. The 
Soviets invaded Afghanistan in 1979. The United States called 
for the removal of the Olympic Games from Moscow to another 
country. That did not happen. We have a different IOC regime in 
place right now. President Jacques Rogge has been fairly silent 
about the issue of human rights.
    I think it would have to be a fairly major incident before 
the Olympic Games were removed, and I think that would only 
occur after some very serious diplomatic efforts to smooth 
things over, because the IOC has a long history of wishing to 
smooth things over before the show comes to town.
    Ms. Finkler. All right. Thank you.
    We have heard some excellent suggestions of how businesses 
and human rights groups can work together to press the Chinese 
Government for more openness and support for human rights.
    What would you recommend to Members of Congress, both as 
individuals or groups, that go over for inter-parliamentary 
exchanges, and to the administration, et cetera, in terms of 
pressing for more change?
    Ms. Beer. Well, first, I think, to start encouraging this 
sort of dialog amongst themselves, to join in with businesses 
and human rights organizations here, and then to bring that 
experience with them when they meet with their counterparts in 
China, I think, is very helpful.
    I mean, we actually ask some of our business members to do 
just that in their own spheres because they have a lot of 
contact with government officials in the parts of the world 
that they do business in. We find that that kind of quiet 
diplomacy is often very effective.
    Ms. Finkler. Thank you.
    Mr. Wamsley. Well, if something is to be done that is going 
to be effective, I think it would be a mistake to go it alone. 
I think that China has many trade partners in the world. The 
United States is one of them. I think it would be a mistake for 
it to be completely a United States initiative.
    I think that any lobbying efforts to this end should go to 
the major corporations who are the Olympic Program [TOP] 
sponsors who have paid some, between $50 and $65 million over 4 
years to be official sponsors of the Olympic symbols worldwide.
    So I think the most effect could possibly come from these 
companies who are finding themselves walking a tightrope now. 
They have a major investment in the games. Right now they are 
spending their time thinking about how interesting their 
commercials will be for 2008. So, I think this would be a bit 
of a burr in their side, these sorts of things. I think it is a 
difficult enterprise. If the United States goes it alone, I 
think that they run the risk of being criticized for being 
show-stoppers.
    In other words, China has been waiting for this kind of 
event for a long, long time, and they felt marginalized as a 
country, internationally, for decades and decades. I think, for 
anything to be an effective form of criticism, it is going to 
have to come from a number of major trade partners for it to be 
effective.
    Ms. Finkler. Thanks.
    Mr. Wolf. Thanks.
    Matt.
    Mr. Tuchow. What is the status of Taiwan? Is Taiwan going 
to participate in the Olympics in Beijing? Are they allowed to?
    Mr. Wamsley. To my knowledge, they will compete as Chinese 
Taipei because they have a National Olympic Committee, and 
China, as a country, is not entitled to prevent them from 
participating.
    Mr. Tuchow. Are there any countries that will not be 
participating now because of a political situation?
    Mr. Wamsley. I do not know at this point.
    Mr. Tuchow. My second question is also to you, Kevin 
Wamsley. It is your conclusion, which I just wanted to probe a 
little further. You were just talking about it to some extent.
    But you write that ``international lobbying initiatives 
that question China's social and political prerogatives in the 
years leading up to the 2008 Olympics might be viewed, even by 
average citizens, as efforts to undermine what has been 
celebrated widely as the arrival of a modern China. 
International advocates for political change in China should 
proceed with caution.''
    So can you explain a little further what you are saying 
there? Are you disagreeing with the types of suggestions that 
Lauryn Beer is making about having engagement, or what exactly 
is the point you are making there?
    Mr. Wamsley. Well, I think it is a complicated issue. I 
think we cannot just say that, if we are going to go in there 
and improve things in China, we are going to do it by 
participating in these kinds of events and these kinds of 
lobbying activities, because I think the outcome is very 
unpredictable.
    I think it is fair to say that a majority of Chinese people 
have already voiced their support for the Olympic Games. I 
think that there is a relationship between the Chinese people 
and the Chinese Government, and the Chinese Government will be 
aware of any solidarity that exists for the promotion of the 
Olympic Games.
    I think that if people are lobbying intensively against 
Chinese law, or detaining prisoners, et cetera, at the time of 
the Olympic Games, and any kinds of threats are made, I think 
that there is going to be a reaction in China that is very 
negative. I do not think there would be widespread support for 
that kind of intense initiative. So, my suggestion is to be 
more subtle.
    I think, for example, if there were a boycott, that would 
be the most effective tool of shutting things down and getting 
people's attention. But, on the other hand, you may throw back 
social change another three decades if you do something like 
that.
    So, I am suggesting that we do not know how much popular 
support there is going to be in China during the Olympic Games, 
but if you look at every other nation that hosts the Olympics, 
for that 2 weeks we do not see any dark side of the nation, all 
we see is people celebrating and being proud of themselves, and 
inviting the world in front of unprecedented satellite 
television stations. So, I say tread softly, or you might not 
get the reaction you expect from the Chinese people for these 
initiatives.
    Mr. Tuchow. And Lauryn Beer, do you agree with that? Do you 
think that the approach should be a subtle one, and that 
nationalism will play a role here, and efforts by NGOs, or even 
companies that are exercising corporate social responsibility 
in a very overt fashion, would backfire?
    Ms. Beer. No. I do not think that what Kevin has said and 
what I am suggesting are incompatible. I do not want to say 
that I have, personally, a strategy for how to do this. I am 
suggesting a way to arrive at that point.
    I do think that companies and people with an interest in 
human rights, and eventually government officials, sitting down 
and trying to agree on how to go about doing this in a way that 
will potentially avoid pitfalls should they arise, is simply 
common sense. I think the more you engage communities that do 
not necessarily speak to each other, the better, for one thing.
    Second, I would also suggest that at some point in this 
dialog that Chinese businesses and human rights advocates are 
also brought in to express their views.
    One of our recommendations is just that, that there should 
be a frank discussion about both Chinese and western 
perspectives on human rights and on the games themselves, and 
what the implications for both business and human rights are.
    I do not think it is up to United States businesses and 
NGOs, for instance, to say to China, ``This is what you should 
be doing.'' I would agree that if that is what happened, that 
that would backfire. But what I am suggesting, is something 
that is more inclusive.
    I think it needs to be done gradually. I do not think that 
you get a group like I am suggesting together, and the next 
week everybody is in agreement that we should have a platform 
that says this, that, and the other thing.
    I guarantee you, from our own experience, the landscape 
always changes anyway. But what you hope to arrive at at the 
end of the day, is some common agreement on how to go about 
your business that makes sense to both communities.
    Mr. Wamsley. Could I add a little bit to that?
    Mr. Tuchow. Sure.
    Mr. Wamsley. What you said just triggered my memory. Some 
of the Chinese businesses that are being asked to come forward 
during this process, there is sort of a bidding war going on in 
China now for companies that will be allowed to set up in 
particular places for the Olympic Games.
    In fact, they have to follow correct business and behavior 
protocols in order to get the right to set up in those places, 
like the airports and downtown Beijing, et cetera. The question 
then becomes, well, how transparent really are these businesses 
practices, and what sorts of behavior is the government 
watching for when they allow certain businesses to set up and 
not others?
    Mr. Wolf. J.J.
    Mr. Piskadlo. Thank you.
    My question is focused at Lauryn. I would appreciate your 
comments on this. I have always been a strong believer that 
businesses can, and do, play a role in changing policies with 
any one country.
    With regard to China, I supported awarding PNTR status to 
China with the belief that China would operate within a rules-
based system, the WTO system, that would give businesses more 
of a foothold there and be able to try and work for change, 
obviously within their own best interests.
    We hear a lot about the coming Olympics, which I thought 
was a good thing. We are talking about what businesses can do 
and how they can work together. As you pointed out, there were 
some recommendations in the Commission's report.
    But one thing that is disturbing to me, I have many 
organizations come to my office and, with particular reference 
to China, they say businesses have not done anything. We are 
looking in the future, but currently, how active have 
businesses been? They cannot be the only source of change, but 
they can play a part within the whole dynamic within China.
    So how active, to date, have businesses been in trying to 
influence China's policies? You had mentioned that there are 
other countries where businesses have played a role. Is there 
one particular model that could be used and applied to China?
    Ms. Beer. I do not think that there is one particular 
model. You have to, first of all, remember that corporate 
social responsibility, as a kind of active movement, if you 
like, is a fairly new thing.
    So, there is not a whole lot of anything other than 
anecdotal evidence to suggest where it has had an effect and 
where it has not. I can only go by the experiences that I come 
across with the companies that I deal with and know what has 
been done and what has not.
    I am not an expert on China. Probably, Bob Kapp is the 
person to ask about United States-China business. But I accept 
the fact that probably businesses have not been as vocal in 
China because it is a huge market and nobody wants to risk 
losing it. Also, it is a new market compared to some of the 
countries that I mentioned.
    Whether companies can do more, I obviously believe that 
they can. I suggest that some form of dialog--again, I have 
given you the example of our Roundtable because I do think it 
is successful in this respect. We have been going for 5 years 
without anybody throwing anything at each other, and we have 
actually come to some action items that have been agreed upon 
by both camps.
    I think that that is the key to any form of successful 
dialog, is that you have to build trust. I think that is the 
fundamental premise upon which any corporate social activity is 
going to change any part of the world, is there has to be 
engagement between the relevant stakeholders, there has to be 
proper relationships built.
    They have to be mutually powerful in any dialog, which is, 
again, one thing that I would stress. I probably have not 
answered your question directly.
    I think more can be done, and I hope the fact that there is 
going to be so much attention 6 years from now would focus 
people on the fact that we have significant time now to do 
something. I think that if companies stick their head in the 
sand, again, they do so at their own risk.
    Mr. Piskadlo. I had one more question for Don. You had 
talked about how South Korea was very concerned about losing 
the Olympics, and they were responsive to pressure not to crack 
down and do something violent, so to speak.
    Do you believe that the Chinese Government would be that 
responsive? I am no expert on China, but sometimes they seem 
to, maybe more so than other countries, not really care. Do you 
believe that they would be responsive to outside pressures?
    Mr. Oberdorfer. Well, it is only a guess, obviously. I 
think they are very responsive. By that, I mean I think they 
are very much aware, not necessarily that they are going to 
follow the lead of outside countries. They have their own 
internal politics. It is a much bigger country than South 
Korea. South Korea had suffered a deviation from an earlier, at 
least quasi-democratic regime, so it is not totally comparable.
    I was in China on occasions when they were bidding 
unsuccessfully for the Olympics. You could see how the 
government made a big thing out of the bid. Every cab you got 
into, the cab driver would say to you in some kind of quasi-
English something about the Olympics. It was a matter of 
incredible national interest and pride. I do not know, if it 
comes down to a threat, what they would do. They probably would 
not respond very well.
    But I do think that, clearly, the Chinese Government and 
the Chinese people are going to be looking outside to a greater 
degree probably than they ever have before as the Olympics 
approach.
    As I said before, and I think has been said earlier, it 
probably is going to be mostly, in the couple years approaching 
the Olympics, when this is very much on people's minds.
    Whether it is going to mean an automatic action to 
liberalize from the government, I am sure, is probably not 
true. But I do think that they will be looking to their 
reputation, and that would probably have some effect.
    Mr. Piskadlo. Thank you.
    Mr. Wolf. Kevin, you referred to rules for businesses 
setting up in relation to the Olympics in Beijing at the 
airport, and so on. Are you are talking about things like China 
Telecom setting up cell phone rental facilities? Are you 
talking about the ice cream vendors on the street, or both?
    Mr. Wamsley. All of those sorts of things. Any kind of a 
national program. Well, first of all, any kind of a sponsorship 
program, and second of all, who is allowed to actually have a 
hot dog stand, if there is such a thing, in the airport, those 
kinds of things.
    So, there is actually a movement by the government to make 
sure that Beijing is clean and has the right sort of businesses 
that are representing proper Chinese character to the world 
when they come.
    Mr. Wolf. Lauryn, are you chairing or running a process, 
have you begun a process that includes the business community 
or business members and human rights groups to specifically be 
brainstorming about this question of what may be done leading 
up to the Olympics?
    Ms. Beer. Yes. We actually had a meeting, which Chris 
Billing came to, not long ago where we had a kind of cross-
section of China experts and businesses that had an interest in 
China to talk about how we might do this. This is why I am 
proposing the sort of dialog I am, because I want us to 
continue trying to sort our way through this.
    One thing that we had not done in that dialog, though, was 
figure out what role government should play, which is why I 
would like to have some government members, whether the Members 
of Congress and/or the administration, actually participate in 
some of these meetings.
    I think it is also important, though, for the businesses 
and the human rights organizations to meet separately as well, 
so they can simply agree on what the agenda should be because 
they are the only ones who really know what their concerns are.
    But after that point, then I think it is useful to bring in 
government. Yes. I mean, we have had these sorts of dialogs, 
not just on China, but on other issues over the years. But this 
is definitely one of our focuses now.
    Mr. Wolf. Kevin, you mentioned that the current president 
of the IOC has been very quiet on human rights issues. Is that 
different than IOC in the past?
    Mr. Wamsley. Not necessarily. We found that after a while 
it was fairly easy to predict the kind of response that 
President Samaranch would have to certain issues. From my 
experience, I do not know President Rogge enough to effectively 
predict how he reacts and how he addresses issues. But so far, 
he seems to be a little more thorough in this interest with 
issues than President Samaranch was.
    Mr. Wolf. Do you have any sense whether, let us assume that 
Lauryn's process succeeds and the business community and the 
human rights groups can come up with a set of realistic, 
practical things that one could do over a several-year period.
    They begin to engage the United States and other 
governments. Is this something that the IOC bureaucracy or the 
IOC politics would be interested in participating in, or is 
this simply something that is untouchable as far as they are 
concerned?
    Mr. Wamsley. Well, it was the IOC that first said, and said 
for three, four decades, that sports and politics do not mix, 
even though all of their actions were deeply politicized. I 
would be surprised if the IOC is willing to tread in these 
sorts of waters at this point, unless something very serious 
happens.
    The IOC is predominantly a European-based organization, 
recognizing that it is primarily funded by United States money. 
However, the power structure still sits in Europe, and they 
also have a number of votes from other countries that support 
the European vote.
    Perhaps if you had some European companies on board and 
some European interests represented in these sorts of things, 
then they would be more likely to take notice.
    Mr. Wolf. What about looking at the U.S. Olympic Committee 
with the same kind of question? Have there been human rights 
concerns? Would you think they might be interested in 
participating as a dialog partner with Lauryn and her group?
    Mr. Wamsley. That would be a very difficult position for 
the United States Olympic Committee, given its relationship to 
the International Olympic Committee. That might be one that 
they, too, are unwilling to address to a great extent, other 
than providing maybe some support.
    The interests of the United States Olympic Committee in the 
last decade have been primarily financial. They have been 
spending a lot of effort trying to get a greater percentage of 
the television revenues and TOP sponsorship, and not so much 
interested in the 
necessarily human factors of the Olympic Games.
    Mr. Wolf. Thanks.
    John.
    Mr. Foarde. Don, your presentation was admirable in 
separating what is fact from speculation. I am going to ask all 
three of you to speculate on the following. But before I do, I 
would say that I was in Mexico City in 1968 for the Olympics, 
and also in Beijing in 1990 for the Asian Games.
    So my question is really to ask you to speculate a bit 
about the long-term effects, if any, of the Olympic Games on 
both the economy of China, but also on human rights and the 
rule of law.
    Given what we know about the results of the Olympic Games 
in developing countries since Mexico, 1968, what do you think 
the impact of the games are going to be on both the economy, 
and then the polity of China after 2008? Total speculation, I 
understand. So, go ahead.
    Mr. Oberdorfer. Well, the first thing I have to say, is I 
do not know. The belief, whether it is true or not, is that the 
Japanese Olympic Games sort of launched Japan into becoming a 
world economic power. That was something very much in the minds 
of the Koreans when they wanted the games.
    I do not think it had that much effect on the economics of 
Korea. They spent a whole lot of money getting prepared with 
these various venues; whether they came out ahead or not, I do 
not know. It did have an effect on the political development of 
the country, but as I said, it was one among several factors.
    I would guess that it will have some effect in China, just 
because, as I said before, the Chinese people's vision will be 
broadened and the government will be very conscious of the 
world 
watching.
    Whether that will be permanent or not, I have no idea. I 
think a lot depends on how the outside world deals with it, and 
on things, at the moment, which we basically cannot predict 
today.
    Ms. Beer. I would pretty much second that, but with the 
caveat that I do not think that simply by opening a market or 
by having an event you necessarily democratize a country.
    I think that unless proactive steps are taken by those who 
have influence, then probably there will not be any major 
changes, 
either for the economy or for human rights and the rule of law.
    To make changes like that, you need significant input. You 
need a lot of planning, you need a lot of dedication. When the 
games are over in 2008, clearly, even if the kind of dialog I 
am proposing has happened, and happened successfully, it does 
not mean that all of the problems all of a sudden cease.
    So I think that sort of dialog would need to continue. I 
think that there will always be room for improvement in any of 
the countries in which U.S. businesses are invested. But I 
think what this does do, is provide a focal point more than 
anything else.
    Mr. Wamsley. I see the Olympic Games as sort of an empty 
cylinder. It gets filled up with something new every once in a 
while, particular to the country that is hosting, or any kind 
of a movement that happens through it, political or otherwise.
    I think, with the case of places like Sydney and Salt Lake 
City, you will see some short-term gains in tourism and local 
economic development. But that was paid for by the people's 
money, essentially, these infrastructure developments.
    I think you will see the same thing in Beijing, is some 
short-term economic kick-starts. But probably the most 
important thing that an Olympics does, is it kick-starts 
governments and people and it really does rationalize 
government programs.
    I do not think it necessarily creates new ones, but, good 
or bad, governments use the Olympic Games to brand themselves 
for a period of time after the games. It also will provide you 
with some sort of reputation.
    But even in the case of Sydney, what are considered to be, 
in spite of the massive debt, a widely successful Olympic 
Games, but what has that reputation done for them economically 
and socially? Has it gotten rid of the crisis they have in 
their government's relationship to Aboriginal peoples? Not at 
all.
    Mr. Wolf. Chris.
    Mr. Billing. I would like to turn our attention to the 
environment in Beijing for a moment. Kevin, I wonder if you 
have a sense of what kind of commitments Beijing has made to 
the IOC as far as cleaning up the air and other pollution 
problems in Beijing, and how effective you think they could be.
    Mr. Wamsley. I cannot speak specifically because I have not 
seen their extended bid book. But I know that, as part of 
official bidding, the IOC is now interested in the environment 
because people have told them that it is important, not because 
they have been proactive.
    They are very interested in bids that show environmental 
clean-up and that promise not to create too much environmental 
damage. Now, we have seen, in spite of this, that the damages 
happened anyway.
    A lot of times, as part of the clean-up process in other 
nations, has included getting rid of low-income housing because 
it is, in effect, cleaning up the vision of the city. That is 
not necessarily an environmentally good thing for the people 
who live there.
    I know they are building some new road infrastructure that 
is getting rid of some of their traffic problems, but it has 
also increased some of their noise problems among the buildings 
because they are putting up super-highways very close to 
buildings. Other than that, I cannot give you any more 
specifics on the environment in Beijing.
    Mr. Billing. Have you seen any instances where Beijing is 
tearing down low-income housing, those sorts of things?
    Mr. Wamsley. I have not yet, no.
    Mr. Billing. Do any of the rest of you have any comments on 
the environment in Beijing and what the games might mean to 
that?
    Ms. Beer. No. But if it is true that the IOC is taking the 
environment into account, I find it hard to believe that that 
is somehow not politicized and that human rights is.
    Mr. Billing. All right.
    Don, I was going to ask you, you mentioned that one of the 
most dramatic moments in the Seoul games was when North and 
South Korea walked in together.
    Mr. Oberdorfer. This was not in Seoul.
    Mr. Billing. I am sorry.
    Mr. Oberdorfer. This was in Sydney.
    Mr. Billing. All right. Of course.
    Mr. Oberdorfer. North Korea did not participate in the 
Seoul games.
    Mr. Billing. Along those same lines, I wonder if you could 
speculate on what the Beijing games might mean to cross-straits 
relations between China and Taiwan.
    Mr. Oberdorfer. I do not know. You know that there is a lot 
of cross-straits activity between China and Taiwan, especially 
economic activity. A tremendous amount. And the people moving 
back and forth, there is a very large amount of that, despite 
the political difficulties.
    So my guess is that there will be the athletes there, and 
they will participate and China will treat them well. They will 
go back home. It is like the businessmen. They will go back 
home and it is probably unlikely to have a very big effect.
    But I am sure that they are going to participate, and there 
is going to be people going back and forth. But, as I say, 
there are a lot of people going back and forth already.
    Mr. Billing. I wonder if you would have a sense that, 
perhaps, in the years leading up to the games, whether 
hostilities between the two sides would be kept at a minimum.
    Mr. Oberdorfer. Are you talking about Taiwan?
    Mr. Billing. Correct.
    Mr. Oberdorfer. I think it will depend on other factors 
more than the games. But who knows?
    Mr. Wolf. Thanks. Tiffany.
    Ms. McCullen. Lauryn, I just wanted to go back to the 
Olympic Roundtable that your group is, I guess, sponsoring. How 
many meetings have you all had so far, and how is that planned? 
Who plans the agenda, and do you plan on inviting government 
officials at some point in time?
    Ms. Beer. We are fairly early in the process. We have had 
two meetings so far. We have not fixed the agenda. Basically, 
our members fix the agenda themselves.
    Ms. McCullen. All right.
    Ms. Beer. We do everything by consensus. All I do when I 
chair is try to guide the discussion to conclusions, but it is 
up to them to choose what they think the important issues are 
to them.
    At the point that they have arrived at that kind of 
agreement, then we have got at least a skeletal outline of the 
issues we think are crucial to work on. I think that is the 
point at which I would want to bring government in.
    Ms. McCullen. And how do you determine which business 
groups to bring in? Just business groups that are already doing 
business in China?
    Ms. Beer. We do a fair bit of research on who is invested 
in China and we look at who is likely to be investing in China. 
Most of the businesses that we have done outreach to in this 
respect are those who already have a big stake. Clearly, all 
the big-name Olympic sponsors would have to be included.
    Ms. McCullen. Thank you.
    Mr. Wolf. Karin.
    Ms. Finkler. Chinese nationalism was mentioned a number of 
times this afternoon. What do you see that looking like in the 
lead-up to the games, in contrast to possibly the expression of 
it after the accidental bombing in Belgrade? How do you think 
it will grow or what will it look like?
    Mr. Oberdorfer. Well, I was in China right after the 
accidental bombing. I would have to say that the reaction to 
that, I found 
appalling, both from the point of view of the United States 
Government, which I do not think did nearly enough to explain 
to the Chinese people what had happened, so the Chinese 
Government line just won the day.
    The Americans sent over a delegation to talk to the Chinese 
leadership, which got very little attention in the Chinese 
media, and I think gave up too easily to try to explain the 
American point of view to the Chinese Government.
    Some elements of the Chinese Communist Party and Government 
took advantage of it to try to paint the United States as a 
deliberate attacker of China, something that I'm afraid a lot 
of Chinese people still believe, and are going to believe 
forever because we, the United States, was not effective in 
getting our story out.
    I would hope that no such incident is going to happen 
again, but I hope that if it ever does, the U.S. Government 
will go a lot better job of getting its story out.
    Ms. Finkler. Do you have a response?
    Ms. Beer. I do not really know how to respond to this, 
except to say that I think nationalism is a factor that should 
be taken into account.
    Therefore, it is important to involve Chinese businesses 
and Chinese activists, to the extent that it is possible, in a 
dialog about human rights and rule of law concerns.
    Mr. Wamsley. The Olympic Games are often a mystifying 
process. That may be stating it too simply, but I would say 
that with respect to nationalism, something like the Olympic 
Games can energize people in strange kinds of ways. People who 
have different advantages in their own societies seem to 
forget, through different kinds of nationalism and 
nationalistic celebrations in all countries, the things that 
make people different economically or socially, or people who 
have different rights in society.
    That is why I think, when you are looking at hard issues 
that are very important, you have to see through mystifying 
processes like the Olympic Games and stay the course. I made 
the comment today that people forget, because the Olympic Games 
are such a media spectacle, the real important things that are 
going on in a place, at a time.
    I encourage people not to forget and to keep things that 
are important to them in the forefront and not to be caught up. 
Well, it is all right to be caught up in the revelry, I 
suppose, and celebrate, but at the expense of some more 
important things, I think that is a mistake.
    Ms. Finkler. Thanks.
    Mr. Wolf. Thanks.
    Matt.
    Mr. Tuchow. Lauryn Beer gave us one potential 
recommendation for the Commission, but I am wondering if the 
panelists have other thoughts about recommendations this 
Commission might make to Congress or to the President about how 
to use, or how to promote human rights and rule of law in China 
as a result of the upcoming 2008 Olympics.
    Mr. Oberdorfer. While I was a journalist for 38 years, I 
kind of shy away from making recommendations to governments. I 
do not think they necessarily would take them, and I am not 
sure I am qualified to give them.
    I just have kind of my own points of view. I have been 
asked by government officials over the years, what would you 
do. My stock answer is, ``That is your problem.'' [Laughter.]
    Mr. Wamsley. I am in the same sort of situation. I tend to, 
by my profession, watch what people do and to analyze it, to 
criticize it, and to understand it. I guess you could ask me a 
question that would be, well, if you could predict what you 
would criticize the least, what would that be?
    That would be some sort of an effort to talk about human 
rights as an international concern and to go with a group, such 
as the United Nations, or whatever group you would decide.
    If it came from the United States president alone, that 
would be problematic, I think. I think if it came from 15 or 20 
other world leaders, interested parties, I think that would be 
something that would require more action.
    Mr. Tuchow. Let me ask a more specific question then. Juan 
Samaranch worked with the ILO, did he not? Is that pure 
serendipity, or do you think there may be some effect as a 
result of that on labor conditions in China? The IOC may be 
able to somehow utilize that in a way that others could not 
because of his past experience with the Olympic Committee?
    Mr. Wamsley. Boy, that is a difficult question. It is hard 
to know what Samaranch is going to do in his retirement. But I 
have certainly seen what he did when he was in office, and a 
lot of it had to do with self-interest. [Laughter.]
    So, I am very skeptical, first of all, from the amount of 
power that he now wields, which is very little, he does have a 
reputation. But before he was IOC president, he also had a 
reputation in the Spanish Government that was not too 
favorable.
    I do not know how effective he will be, how good his health 
is, and how really interested he is in actually making things 
happen or continuing to keep his name in the press.
    Mr. Tuchow. In terms of rule of law, I assume there are 
Olympic mascots and logos whose intellectual property rights, 
you would think, would be protected. Is there going to be an 
issue with that in China as a result of the fact that there are 
problems along these lines in China, and could that lead to 
some progress in terms of protecting intellectual property 
rights?
    Ms. Beer. I do not know. Intellectual property has, as you 
know, been a big problem for a lot of businesses. Whether the 
Olympics are going to make any difference to that I think will 
depend, in part, whether those businesses who are affected make 
a real kind of public push about it. I do not know that I think 
the Olympics itself is going to make any difference to that 
kind of rule of law question.
    Mr. Wamsley. There are rules and regulations for the 
Olympic symbols and mascots, and all those sorts of things that 
must apply in China, or anywhere else. Only the TOP sponsors, 
for example, may use the Olympic symbols exclusively worldwide. 
But there are companies in China who could, for example, pay to 
use Olympic symbols.
    I think that there have been some improvements with respect 
to the sorts of things that are permitted in China, but it 
certainly is an issue for Chinese law and the Olympic Games are 
not going to affect that, I do not think.
    Mr. Tuchow. You do not think they will try to enforce it, 
and therefore strengthen the intellectual property rights?
    Mr. Wamsley. I think that one thing the Olympics does, on 
the other hand, is to promote ambush marketing. This could 
happen in China as well. I mean, we see it everywhere. American 
Express has done it, when it did not have the rights, against 
Visa.
    The Olympic Games provide an opportunity for people to make 
money. That would tell me that there would be a lot of 
underground pin making that is not approved of in China, like 
every other country. The unethical or illegal practices tend to 
win the day when money is on the table, so I would say it may 
go in the other direction.
    Mr. Wolf. J.J.
    Mr. Piskadlo. I have no questions.
    Mr. Wolf. All right. It is 4 o'clock. This has been a very 
interesting session. This is actually totally different than 
every other roundtable we have had. We have had about 15 of 
these sessions.
    They have all been on issues that have been around for a 
long time. There are people with very passionate or very 
dispassionate views, but very well-developed views. We have got 
the issue of corporate social responsibility, which as you 
said, Lauryn, has just been around for a short period of time.
    It is one of the issues that our commissioners have 
committed themselves to look into very closely to make some 
clear recommendations and try to take some actions in the 
Congress over the next year.
    But the first thing they are going to have to do, is come 
up with some definitions and some understanding of exactly what 
it is, and we have mixed it in with the Olympics today where, 
for what may be the first time, the human rights issues are 
starting to come 
together, at least in terms of what the human rights NGO 
community is concerned about.
    I did not think we were going to come up with an agenda and 
conclusions today. I think the Commission, our bosses, will be 
looking at this over literally the next couple of years, as is 
your group, Lauryn, and a number of others, Kevin, to see, are 
there ways in which the Olympics may be used to improve human 
rights and rule of law in China.
    I think this was a good base to start from and we 
appreciate the three of you coming and giving your time to us. 
So, thanks very much.
    We will post, by tomorrow, the written statements that 
Kevin and Lauryn had. In about 5 weeks, on our web site, we 
will post the full transcript of the session today. So, thanks 
a lot, and especially to you, Kevin, for coming so far.
    [Whereupon, at 4 p.m. the roundtable was concluded.]














                            A P P E N D I X

=======================================================================


                          Prepared Statements

                                ------                                


                  Prepared Statement of Kevin Wamsley

                           november 18, 2002
    First, permit me to thank you for inviting me to testify before 
this commission. Our point of departure for these proceedings is to 
discuss the potential influences of the process of hosting the Olympic 
Games in 2008 on human rights in China. First of all we must 
acknowledge of course that our ruminations are purely speculative. But, 
that being said, we may offer some comments on these issues based on 
our knowledge of China's history, its current political policies and 
practices, its cultural connections to the Olympic Games in the past 
and present and, perhaps most importantly, some of the extant 
perceptions about the role of the modern Olympics in facilitating 
social and political change.
    China's sporting relations with other countries extend back almost 
a century, including post World War I correspondence with the 
International Olympic Committee (IOC) and participation in the Games of 
1932, 1936, and 1948.\1\ China's return to competition in 1984, indeed 
the fervor of its bidding strategies for the Games of 2000 and 2008, 
signaled that the Olympics had become a significant component of 
Chinese domestic and foreign policy. If the unofficial financial 
estimates, cost projections, and the official proclamations of social 
preparation may be positioned as indicators, then we must conclude that 
not only are the Games of 2008 a serious 
commitment for China, they are being positioned as one of the most 
important events in Chinese history. With this in mind, we may draw 
some speculative conclusions on what sort of strategies may be adopted 
and employed by the Chinese 
government to render a public face of success to the international 
community and, further, how the Chinese people will participate in 
projecting favorable images of a modern China to a global audience.
---------------------------------------------------------------------------
    \1\ Dongguang Pei, ``A question of names: The Two Chinas Issue and 
the People's Republic of China in the Modern Olympic Movement,'' 
unpublished Master's thesis, The University of Western Ontario, 1995, 
pp. iii-iv.
---------------------------------------------------------------------------
    In the post 1984 era of the commercialized Olympic Games, host 
cities have 
employed deliberate strategies to represent themselves as world class 
cities--stable, intriguing, vibrant, and successful.\2\ Beijing will be 
no different. Indeed, to date, 
Beijing's public proclamations respecting citizen behavior and hosting 
protocols, entitled Urban Civility and Building Citizen Morality, I 
would characterize as overt and threatening.\3\ Arguably, it is fair to 
say that the Chinese government will ensure that, far beyond the level 
of the Olympic volunteer, average Beijing citizens will adhere to a 
code of conduct for the Games, including pre- and post periods. This is 
not unusual for host cities. Rather, it remains a matter of degree. 
When one considers that the Olympic Games have long been a site for 
political expression, alongside a more recently fervent civic and 
national boosterism by host cities, juxtaposed with intense media 
scrutiny, it follows that citizen behavior and political protests are 
matters of significant concern for organizing committees and national 
governments. Assurances from host countries are implied in official 
doctrine. Indeed, it has been the expressed interest of the IOC through 
its published Olympic Charter, that there be ``no kind of demonstration 
or political, religious or racial propaganda . . . permitted in the 
Olympic areas.'' \4\ Further, many bidding cities and host cities from 
around the world have taken steps to remove what are perceived to be 
unsightly individuals and groups in core areas and to ensure that 
political groups are not given opportunities to distribute information 
or capitalize upon media opportunities.\5\ It is fair to assume that 
Beijing will implement some strategies of urban cleansing, perhaps in 
the form of relocating unregistered citizens in Beijing, shutting down 
their businesses, or even detaining them.
---------------------------------------------------------------------------
    \2\ See, for example, Kevin B. Wamsley, ``What Price For World 
Class?'' Canadian Issues, Autumn 1999, pp. 14-15; ``Policy Implications 
For Hosting the Olympics,'' Policy Options, Vol. 18, No. 3, May, pp. 
13-15, 1997; ``Tradition, Modernity, and the Construction of Civic 
Identity: The Calgary Olympics,'' Olympika, V, pp. 81-90 with Michael 
K. Heine, 1996.
    \3\ See the official website: http://www.beijing-2008.org/new--
olympic/eolympic/1009--e/5.htm
    \4\ Olympic Charter, International Olympic Committee, September 
2001, p. 85.
    \5\ See, for example, Helen Lenskyj, The Best Olympics Ever? The 
Social Impacts of Sydney 2000. New York: SUNY, 2002.
---------------------------------------------------------------------------
    One of the most significant factors to be considered in Beijing's 
hosting of the 2008 Olympics is the potential influence of the idea of 
nationalism in China, stemming mainly from a common sense of historic 
and current marginalization among Chinese people, in various forms of 
international relations and, consequently, the galvanization of public 
sentiment that hosting the Olympic Games has already inspired and will 
continue to escalate.\6\ This of course has direct bearing on the 
behavior of citizens, their support of overall government initiatives, 
and the reluctance of even some dissidents to jeopardize China's moment 
of international recognition. This nationalist sentiment should not be 
underestimated, particularly when one is attempting to gauge how 
Chinese citizens will react to government crackdowns, urban policy 
initiatives, dealing with dissidents, how they may or may not reveal 
information about their lives to outsiders, and how they will actively 
participate in the Olympic Games and related festivities. Just as 
significantly, it is likely that the Chinese government will take 
advantage of such cultural solidarities as it launches and conducts its 
programs of cultural representation for Beijing.
---------------------------------------------------------------------------
    \6\ While not necessarily representative of popular opinion in 
China, see Dave Sheng, ``Who lost China?''--the resurgence of Chinese 
nationalism,'' Chinese Community Forum, 1996, to provide some context 
for the discussion of these issues. http://www.rider.edu/phanc/courses/
countrys/asia/china/Cnatlsm/Sheng.htm
---------------------------------------------------------------------------
    In addition to the period of time leading up to the Games, the 
potential influences of an influx of some 20,000 plus journalists and 
sport tourists during the Olympic Games must be debated. However, any 
suggestions that such social contacts between Chinese citizens in 
Beijing and other parts of China and so-called westerners will have an 
immediate influence on social activism or a long-term effect on 
government policies are erroneously simplistic. Certainly the issue of 
human rights in China has become a focal point for the western media, 
and journalists will be interested in both controversy and crisis. Any 
immediate matters of human rights will, without doubt, be dealt with 
expeditiously. But with respect to term effects of the Games, there are 
many factors to consider in the hosting process, which tend to polarize 
media interpretations of local and national events and limit the 
influence of what might be perceived as contradictory or destabilizing 
ideologies. First and foremost, the Olympics are a brief and intense 
media spectacle. Second, the Chinese government may refuse entry to any 
media personnel who have proven to be 'unfriendly' in the past. Third, 
the IOC maintains the rights to internal access for members of the 
media. Fourth, a glimpse at Olympic history demonstrates that serious 
local or national problems may be focal points of international 
interest through media scrutiny before and during an Olympics or the 
bidding process; but such stories tend to fade quickly, when the 
Olympic caravan has departed. Take, for example, Aboriginal issues in 
Sydney, Calgary, Salt Lake City, homelessness in Toronto and Atlanta. 
The Olympic process, bidding, hosting, and the attendant ideological 
forays into peace, brotherhood, and equity have had little direct 
impact beyond limited media exposure to such issues and inspiring a 
greater solidarity toward local resistance to mega events. And, 
finally, the sheer intensity of the Olympic Games as a media 
construction tends to shift focus away from national issues that may 
have received significant attention before the Games, effectively 
marginalizing the plights of individuals or groups who may have once 
been central to journalistic 
interests.
    Other international interest groups are integral components of the 
legitimizing process perpetuated through the Olympic Games. Currently, 
and increasingly as the Games draw near, corporations, consulting 
firms, specialists, and academics will trade on the economic 
opportunities presented by the hosting of the next Games. Groups in 
Sydney, for example, are lobbying to assist China in developing its 
infrastructure and Olympic programs, from buildings and facilities to 
cultural programs, academic exchange, and Olympic education. 
Corporations that already have a significant multi-million dollar 
interest in the success of the Games, and those that are currently 
seeking contracts, are not likely to endorse any systematic critiques 
that focus negative attention toward the host nation. Indeed, they have 
diverse financial interests in Chinese markets but also, the larger 
corporations that trade on Olympic symbolism and ideology have a stake 
in promoting an image of China as an exotic, historically stable, vital 
Nation through which sensible and interesting cultural links can 
enhance their products and the flow of global capital. Intellectuals 
who depend upon access to even limited information, travel, and 
financial aid for publications and educational liaisons are not likely 
to seriously raise issues of human rights, for fear of jeopardizing 
their positions of privilege.
    Historically, the Olympic process has tended to provide legitimacy 
to host governments and their policies, endorsements to their success 
in hosting the Games, and furthering the 'spirit' of the Olympic Games, 
as opposed to drawing attention to shortfalls and political 
controversies. Well-documented examples include the economic crises of 
Antwerp in 1920 and London in 1948, the Great Depression in 1932 Los 
Angeles, Hitler's fascism in 1936, Mexico's slaughter of innocent 
citizens in 1968.\7\ Serious tragedies and atrocities have become 
subsidiary to the more 
glamorous immediacies of the Olympic spectacle. On the other hand, 
members of the international sporting community, Olympic officials 
specifically, were able to exert remarkable influence through several 
decades over the issue of apartheid in South Africa. These pressures, 
however, had more broad-based political support and diplomatic 
attention.
---------------------------------------------------------------------------
    \7\ See the following sources for both general and specific 
information on these Games: Alan Tomlinson and Garry Whannel, eds, 
``Five Ring Circus: Money Power and Politics at the Olympic Games,'' 
London: Pluto 1984; Richard D. Mandell, ``The Nazi Olympics,'' New 
York: MacMillan 1971; Arnd Kruger, ``The Ministry of Popular 
Enlightenment and Propaganda and the Nazi Olympics of 1936,'' in Robert 
K. Barney, Kevin B. Wamsley, Scott G. Martyn, Gordon H. MacDonald, eds, 
``Global and Cultural Critique: Problematizing the Olympic Games,'' 
London: International Centre for Olympic Studies 1998, 33-48; Allen 
Guttmann, ``The Games Must Go On: Avery Brundage and the Olympic 
Movement,'' New York: Columbia University Press 1984; Kevin B. Wamsley, 
``The Global Sport Monopoly: a synopsis of 20th century Olympic 
politics,'' International Journal, Vol. LVII, 3, pp. 395-410.
---------------------------------------------------------------------------
    In summary, the Olympic Games have done far more to sustain and 
reproduce extant domestic policies, to reproduce mythologies about race 
and equality, economic and social opportunity, and world peace, than to 
subvert the inequalities of the world.\8\ In the short term, it is 
likely that the Olympic process ensconced with its traditional 
diplomacies, hyperbole, and rhetoric, indeed the political exigencies 
of host nation, will negatively affect human rights in China. Further, 
the solidarities created through extensive preparations to host the 
world should not be underestimated. International lobbying initiatives 
that question China's social and political prerogatives in the years 
leading up to the 2008 Olympics might be viewed, even by average 
citizens, as efforts to undermine what is being celebrated widely as 
the arrival of a modern China. International advocates for political 
change in China should proceed with caution.
---------------------------------------------------------------------------
    \8\ Kevin B. Wamsley, ``Laying Olympism to Rest,'' in Post-
Olympism? Questioning Sport in the Twenty-First Century, ed. John Bale, 
Berg, 2004, forthcoming.
---------------------------------------------------------------------------
                                 ______
                                 

                   Prepared Statement of Lauryn Beer

                           november 18, 2002
                              introduction
    Thank you for allowing me the opportunity to speak to you on behalf 
of the Fund for Peace. My name is Lauryn Beer and I am the Director of 
the Fund's Human Rights and Business Roundtable.
    The mission of The Fund for Peace is to prevent war and alleviate 
the conditions that cause war. Our programmatic focus is to strengthen 
the capacity of the U.S. and the international community to respond to 
global internal conflicts in 5 key areas: Early Warning, Military 
Intervention Criteria, Arms Control, Policy Integration and 
Constituency Building.
    It is this last area--constituency and consensus building--that the 
Human Rights and Business Roundtable has excelled. It is also the focus 
of what I wish to speak to you about today. The Beijing Olympics 
affords a timely opportunity for creative partnering between the 
business and human rights communities both in the U.S. and in China to 
both improve human rights and the climate for international businesses 
investing in China.
    The Human Rights and Business Roundtable was launched in 1997 with 
the goal of bringing together two communities that have been 
traditional adversaries: multinational business and human rights 
advocates. Yet they represent two of the most important post-cold war 
constituencies in the United States. In its 5 years of operation, the 
Roundtable has developed procedures, principles, formats and policies 
to ensure the smooth working of the Roundtable, including a set of 
operational ground rules. They stipulate that members of the Roundtable 
participate in their individual capacity and not as representatives of 
the organizations with which they are affiliated, so that they do not 
need to obtain clearance from their organizations to 
express views and reach consensus. All discussions are off-the-record 
and by invitation only, and records of the meetings are on a non-
attribution basis, except when speakers indicate otherwise. The 
Roundtable offers a way to discuss hard issues in a spirit of 
cooperation rather than confrontation. It has thus far convened over 50 
meetings that have engaged more than 150 individuals from the human 
rights and business communities. Over 20 multinational corporations and 
30 human rights groups have collaborated under the Roundtable's 
leadership to work in partnership on the problems and opportunities of 
economic globalization.
   the potential impacts of the beijing olympics on human rights and 
                                business
    It is no secret that the success of China's bid for the 2008 
Olympic Games has garnered much criticism from human rights advocates. 
The scrutiny of the human rights community will make it likely that 
businesses supporting the Olympics will be expected to do more than 
simply pay for advertising space in Beijing. Already, Human Rights 
Watch, Amnesty International and others have stated publicly they 
expect sponsoring businesses to take a proactive role in advancing 
democracy in China in the lead up to, and during, the Games. U.S. 
corporations sponsoring the Olympics or tendering bids for preparatory 
infrastructure development could face considerable challenges. Sponsors 
could find themselves tainted by association, should the Chinese 
authorities commit human rights abuses during the Games. For example, 
the Olympic Committee's mandate states that there must be unfettered 
access to the Press during the Games. But what will the Chinese 
authorities do in the face of potential protests around the Games? What 
might be the repercussions for business if human rights abuses are 
being seen committed under corporate 
banners?
    Further, corporations doing business in China--not just those 
sponsoring the Games--have an interest in promoting the rule of law, 
since predictability is crucial to sustainable business. Businesses 
ignore the human rights aspects of the rule of law at their own peril, 
as has been borne out by the experiences of some companies in countries 
such as Nigeria, Colombia, Indonesia, India and, yes, China.
    The new leadership in China will no doubt wish to capitalize on the 
publicity and income the Games generate. There are 6 years between now 
and the Summer Games in 2008, during which business, government and 
NGOs can engage in a meaningful and action-oriented dialog on human 
rights and business issues 
surrounding the Games.
                            recommendations
    The Congressional-Executive Commission on China is charged with 
monitoring human rights and the development of the rule of law in 
China, and with submission of an annual report to the President and the 
Congress. In its 2002 Annual Report, the Committee made one of its 
priority recommendations that the Administration ``. . . facilitate 
meetings of U.S., Chinese, and third-country companies doing business 
in a specific locality and industry in China to identify systemic 
worker rights abuses, develop recommendations for appropriate Chinese 
government entities, and discuss these recommendations with Chinese 
officials, with the goal of developing a long-term collaborative 
relationship between government and business to assist in improving 
China's implementation of internationally recognized labor standards.''

          1. The Fund for Peace believes that human rights 
        organizations and multinational business form two of the key 
        constituencies affecting U.S. foreign 
        policy today. The Fund proposes that the Committee's 
        recommendation on business-government collaboration be 
        broadened to include U.S. and international NGOs;
          2. We further recommend that the focus of collaboration 
        between business, NGOs and government be widened to cover not 
        only labor issues in China but a broad range of human rights 
        and rule of law issues that relate to the success of the 
        Beijing Olympics. These would include freedom of association 
        and assembly, freedom of expression, security concerns, due 
        process and transparency;
          3. The Human Rights and Business Roundtable offers a useful 
        and practical model for engagement between businesses and human 
        rights organizations and their partners in China; and
          4. We propose that the goals of a dialog on the Beijing 
        Olympics be as follows:

                  <bullet> To develop a preventative strategy that 
                would assist businesses in avoiding being implicated in 
                potential human rights abuses surrounding the Games;
                  <bullet> To engage a broad cross section of civil 
                society and businesses in frank discussions of Chinese 
                and Western perspectives on human rights and the rule 
                of law;
                  <bullet> To involve the private sector in ongoing 
                conversation and education on security and human rights 
                issues in a cooperative spirit of corporate social 
                responsibility;
                  <bullet> To educate both constituencies and increase 
                their knowledge of human rights and security issues;
                  <bullet> To support civil society capacity building 
                by promoting groups to act in a collective setting and 
                encourage collaboration, where possible;
                  <bullet> To find areas of common ground, explore 
                channels of potential cooperation between communities, 
                and create practical actions to attain mutual goals; 
                and
                  <bullet> To use the Beijing Olympics as a means to 
                establish a ``best practices'' model for future 
                international events.

          5. We invite the Committee to report on the dialog's progress 
        in its future 
        Annual Reports.

                                   - 

</pre></body></html>
